Attorneys for Petitioners
Mark Leonard Rienzi
Counsel of Record

The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036

(202) 955-0095

mrienzi@becketlaw.org
Party name: Sharonell Fulton, et al.
Attorneys for Respondents
Leslie Cooper
Counsel of Record

American Civil Liberties Union
125 Broad Street
New York, NY 10004

(212) 519-7815

lcooper@aclu.org
Party name: Intervenor Support Center for Child Advocates and Philadelphia Family Pride
Neal Kumar Katyal
Counsel of Record

Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004

(202) 637-5528

neal.katyal@hoganlovells.com
Party name: City of Philadelphia, Department of Human Services for the City of Philadelphia,
Philadelphia Commission on Human Relations

